.                                                                  _




          FUND BALANCE WITH TREASURY ACCOUNT IN THE
              FY 1996 FINANCIAL STATEMENTS OF THE
               DEFENSE BUSINESS OPERATIONS FUND



    Report Number 98-100                           April 2, 1998




                 Office of the Inspector General
                     Department of Defense
Additional Copies

To obtain additional copies of this audit report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, Home Page at WWW.DODIG.OSD.MIL.

Suggestions for Future Audits

I’o suggest ideas for or to request future audits, contact the Planning and Coordination
Branch of the Analysis, Planning, and Technical Support Directorate at (703) 604-8939
(DSN 664-8939) or FAX (703) 604-8932. Ideas and requests can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 4249098; by sending an electronic message to Hotline@DODIG.OSD.MIL; or
Sy writing the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected.




Acronyms

AR                   Accounting Report
CFO                  Chief Financial Officer
DBOF                 Defense Business Operations Fund
DFAS                 Defense Finance and Accounting Service
DLA                  Defense Logistics Agency
FBWT                 Fund Balance With Treasury
IG                   Inspector General
OMB                  Office of Management and Budget
OSD                  Office of the Secretary of Defense
SMUR                 System Manager and User Review
TBO/TFO              Transactions By and For Others
                            INSPECTOR     GENERAL
                            DEPARTMENT   OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202




                                                                       April 2, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Audit Report on the Fund Balance With Treasury Account in the FY 1996
         Financial Statements of the Defense Business Operations Fund
         (Report No. 98-100)


        We are providing this audit report for review and comment. We performed the
audit to fulfill the requirements of the “Chief Financial Officers Act of 1990,” as
amended by the “Federal Financial Management Act of 1994. n We considered
management comments on a draft of this report in preparing the final report.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service did not comment on a draft of this
report. Therefore, we request that the Director, Defense Finance and Accounting
Service, provide comments on Recommendation B.2.; the Director, Defense Finance
and Accounting Service Cleveland Center, provide comments on Recommendations
B.3.a.) B.3.b.) and B.3.c. ; and the Director, Defense Finance and Accounting Service
Columbus Center, provide comments on Recommendations B.4.a.) B.4.b.) and B.4.c.
by June 2, 1998.

       We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Mr. David F. Vincent, Audit Program
Director, at (703) 604-9110 (DSN 664-91 lo), e-mail
 < DVincent@DODIG.OSD.MIL > ; or Ms. Barbara A. Sauls, Audit Project Manager,
at (703) 604-9129 (DSN 664-9129), e-mail C BSauls@DODIG.OSD.MIL > . See
Appendix C for the report distribution. A list of audit team members is on the inside
back cover.




                                        David K. Steensma
                                 Deputy Assistant Inspector General
                                           for Auditing
                             Office of the Inspector General, DOD

Report No. 98-100                                                           April 2,1998
   (Project No. 5FI-b202 1.Ol)



                     Fund Balance With Treasury Account in the
                        F’Y 1996 Financial Statements of the
                         Defense Business Operations Fund


                                    Executive Summary

Introduction. This audit of the Fund Balance With Treasury Account is being performed
to fulful the requirements of the “Chief Financial Officers Act of 1990,” as amended by
the “Federal Financial Management Act of 1994.” This is the third in a series of reports
on issues related to cash management, or the Fund Balance With Treasury Account, in the
financial statements of the Defense Business Operations Fund. The first report, Inspector
General, DOD, Report No. 97-067, “Defense Agencies Cash Management in the Defense
Business Operations Fund, n January 10, 1997, and the second, Inspector General, DOD,
Report No. 98-039, “Cash Management in the Defense Working Capital Funds,”
December 15, 1997, discussed the need for better control of cash in the Defense agencies
and DOD, respectively.

The DOD Fund Balance With Treasury Account balance comprises facial            data reported
to the Department of the Treasury by DOD and other agencies that report for DOD. These
data are recorded and summarized in the Fund Balance With Treasury Account in the
general ledgers of DOD organizations. The Fund Balance With Treasury Account balance
is also reported in the Defense Business Operations Fund monthly reports and the Chief
Financial Officers Act financial statements. The Fund Balance With Treasury Account
balance is a net balance that includes funds collected, funds disbursed, and funds with
Treasury. During FY 1996, the Defense Business Operations Fund reported $73.5 billion
in funds collected, $74.7 billion in funds disbursed, and $5.3 billion in funds with
Treasury. As of September 30, 1996, the net balance in the Fund Balance With Treasury
Account for the Defense Business Operations Fund was $4.1 billion.

On December 11, 1996, the Under Secretary of Defense (Comptroller) separated the
Defense Business Operations Fund into four Defense Working Capital Funds. That
realignment did not affect the issues discussed in this report.

Audit Objectives. The primary audit objective was to determine whether the Fund
Balance With Treasury Account in the Consolidated Financial Statements of the Defense
Business Operations Fund for FY 1996 was presented fairly in accordance with Office of
Management and Budget Bulletin No. 94-01, “Form and Content of Agency Financial
Statements,” November 16, 1993. We also assessed internal controls and compliance with
laws and regulations related to the financial statements.

We reviewed internal controls related to the Fund Balance With Treasury Account in the
FY 1996 Defense Business Operations Fund monthly reports and the financial statements.
Specifically, we reviewed the amounts reported as undistributed collections and
undistributed disbursements. We also analyzed the effect of the undistributed amounts on
the monthly Accounting Report 1307 and the Chief Financial Officers Act financial
statement reporting of the accounts receivable and accounts payable balances.
Audit Results. The Defense Business Operations Fund general ledgers did not support the
$4.1 billion Fund Balance With Treasury Account balance as reported in the FY 1996
monthly Accounting Report 1307 and the financial statements for the fiscal year ended
September 30, 1996. As a result, DOD used the balances provided by the Department of
the Treasury as the amounts reported for the Fund Balance With Treasury Account
(Finding A).

The Defense Finance and Accounting Service (DFAS) Centers did not disclose the dollar
amount of undistributed collections closed out to accounts receivable or the dollar amount
of undistributed disbursements closed out to accounts payable in the FY 1996 financial
statements for any component of the Defense Business Operations Fund. In addition, the
DFAS Cleveland and Columbus Centers incorrectly reported a net total of $335.4 million
in undistributed collections and a net total of $849.8 million in undistributed disbursements
in the monthly Accounting Report 1307 for the Defense Business Operations Fund of the
Defense agencies. As a result, without full disclosure, the financial statements for each
Defense Business Operations Fund component did not adequately show the effect of
adjustments made to accounts receivable and accounts payable due to undistributed
amounts. In addition, because of the incorrect reporting of undistributed amounts,
cumulative undistributed collections were overstated by $334.6 million and cumulative
undistributed disbursements were understated by $810.8 million. The condition continued
with the FY 1997 accounting reports and fiDancia.l statements. If not corrected, the
accounting reports and financial statements for FY 1998 and beyond will be materially
misstated (Finding B).

Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) update the annual “DOD Guidance on Form and Content of Financial
Statements,” to include a disclosure requirement for reporting material undistributed
amounts. We also recommend an update to DOD 7000.14-R, the “DOD Financial
Management Regulation, n to remove invalid General Ledger Account Codes and their
corresponding invalid reporting lines in the monthly Accounting Report 1307.

We recommend that the Director, DFAS, issue standard operating procedures to the DFAS
Centers for the reporting of undistributed balances in the monthly Accounting Report 1307.
Quality assurance reviews of financial information are being performed; however,
additional quality review procedures are needed to ensure the accuracy and consistent
reporting of information in the financial statements. Furthermore, additional procedures
are needed to research, analyze, and make necessary adjustments to negative undistributed
balances before preparing the financial statements.

Management Comments. The Under Secretary of Defense (Comptroller) agreed to
update the annual “DOD Guidance on Form and Content of Financial Statements” and omit
invalid General Ledger Account Codes and invalid reporting lines in the Accounting
Report 1307, Statement of Cash Flows, Supplemental Disclosure of Cash Information.
See Part I for a discussion of management comments and Part III for the corn lete text of
management comments. The Director, DFAS, did not respond to a draft of tg is report
issued on November 20, 1997.

Audit Response. The comments from the Under Secretary of Defense (Comptroller) were
responsive. We request the Director, DFAS and the Directors, DFAS Cleveland and
Columbus Centers, provide comments in response to the final report by June 2, 1998.
Table of Contents
Executive Summary                                            i

Part I - Audit Results
      Introduction
      Audit Background
      Audit Objectives
      Finding A. The Fund Balance With Treasury Account
      Finding B. Reporting of Undistributed Transactions

Part II - Additional Information
      Appendix A. Audit Process
         Scope and Methodology                              20
         Management Control Program
      Appendix B. Summary of Prior Coverage                 ;:
      Appendix C. Report Distribution                       26


Part III - Management Comments
        Under Secretary of Defense (Comptroller) Comments   30
Part I - Audit Results
Introduction

     This audit of the Fund Balance With Treasury (FBWT) Account was performed
     to fulfill the requirements of the “Chief Financial Officers (CFO) Act of 1990,”
     as amended by the “Federal Financial Management Act of 1994.” This is the
     third in a series of reports on issues related to cash management, or the FBWT
     Account report in the Defense Business Operations Fund (DBOF). The fust,
     Inspector General (IG), DOD, Report No. 97-067, “Defense Agencies Cash
     Management in the Defense Business Operations Fund,” January 10, 1997, and
     the second, IG, DOD, Report No. 98-039, “Cash Management in the Defense
     Working Capital Funds, * December 15, 1997 discussed the need for better
     control of cash in the Defense agencies and DOD, respectively.



Audit Background

     Congress established the DBOF as a revolving fund on October 1, 1991. The
     DBOF combined DOD and Service-owned revolving funds formerly known as
     stock and industrial funds. Certain Defense agencies that had formerly received
     appropriated funds were added. The DBOF was intended to improve financial
     management and to control resources with greater efficiency. Cash information
     for the DBOF is reported in the FBWT general ledger accounts. Each business         .
     area within the DBOF reports financial information for the FBWT Account.
     For DBOF cash management and reporting on the consolidated financial
     statements, each business area’s FBWT amounts are consolidated at each of the
     five Component levels. The Component levels are the three Military
     Departments, the Corporate Account, and the Defense agencies.

     The FBWT Account consists primarily of collection and disbursement
     transactions that are executed and reported by disbursing officers through the
     DOD facial      network. These transactions are validated and consolidated at the
     Defense Finance and Accounting Service (DFAS) Centers in Cleveland and
     Columbus, Ohio; Denver, Colorado; Kansas City, Missouri; and Indianapolis,
     Indiana. For all DOD appropriations, the DFAS Cleveland Center, which also
     reports for the DFAS Kansas City Center; the DFAS Denver Center; and the
     DFAS Indianapolis Center, which also reports for the DFAS Columbus Center,
     transmit collection and disbursement data to the Department of the Treasury by
     the 8th work day of each month.

     On December 11, 1996, the Under Secretary of Defense (Comptroller)
     separated the DBOF into four Defense Working Capital Funds. That
     realignment did not affect the issues discussed in this report.




                                         2
Audit Objectives

     The primary audit objective was to determine whether the FBWT Account on
     the Consolidated Financial Statements of the DBOF for FY 1996 was presented
     fairly in accordance with Office of Management and Budget (OMB) Bulletin
     No. 94-01, “Form and Content of Agency Financial Statements,”
     November 16, 1993. We also assessed internal controls and compliance with
     laws and regulations related to the financial statements.

     We reviewed internal controls related to the FBWT Account on the DBOF
     monthly Accounting Report 1307 (AR 1307); the AR 1307 Statement of Cash
     Flows, Supplemental Disclosure of Cash Information (Supplemental
     Information); and the DBOF CFO Act financial statements. Specifically, we
     reviewed undistributed collections and undistributed disbursements reported in
     the DBOF monthly AR 1307 and the DBOF CFO Act financial statements. In
     addition, we analyzed the effect of undistributed amounts on the monthly and
     annual reporting of accounts receivable and accounts payable for the DBOF.
     See Appendix A for a discussion of the audit scope and methodology.
     Appendix B summarizes prior audit coverage.




                                        3
           Finding A. The Fund Balance With
           Treasury Account
           The DBOF general ledgers did not support the $73.5 billion in funds
           collected, $74.7 billion in funds disbursed, $5.3 billion in funds with
           Treasury, or the net $4.1 billion FBWT Account balance as reported in
           the monthly AR 1307 and the DBOF financial statements for the fiscal
           year ended September 30, 1996. This occurred because previously
           reported deficiencies in DOD accounting and reporting systems, such as
           general ledger controls and the DOD collection and payment process,
           remained uncorrected. Consequently, DOD had no method of
           determining reliable FBWT amounts and used the monthly and annual
           Department of the Treasury (the Treasury) FBWT Account balances as
           the reported amounts in the FY 1996 DBOF monthly AR 1307 and the
           FY 1996 DBOF financial statements. The same problems existed for the
           FY 1997 Working Capital Fund financial statements. If these problems
           are not corrected, the accounting reports and financial statements for
           FY 1998 and beyond will be materially misstated.



The Fund Balance With Treasury Account Balance

    The DOD FBWT Account balance comprises fiaancial data reported to the
    Treasury by DOD and other agencies that report for DOD. Through the Military
    Department financial networks, DOD reports transactions for all DOD
    appropriations to the Treasury on a monthly basis. Other agencies, such as the
    Department of State and the General Services Administration, use their own
    systems to report DOD financial data to the Treasury. The Treasury tracks all
    collections, disbursements, and transfers made by and to Federal agencies.
    Each month, the financial network data reported to the Treasury are reconciled
    to the facial    data accepted by the Treasury from all sources.

    The differences in the FBWT Account balances as shown in the DOD financial
    networks and the Treasury have at least two causes, the accounting and
    reporting systems and the DOD collection and payment process. The financial
    network data that should be posted to the DBOF general ledgers were not
    always available because DOD did not have a centralized accounting and
    reporting system. Therefore, DOD was unable to compute the status of its own
    appropriation balances. In addition, the DOD collection and payment process
    caused timing problems in posting collection and disbursement transactions to
    DOD general ledgers. Consequently, DOD had no method of determining
    reliable FBWT amounts and used the monthly and annual Treasury FBWT
    Account balances as the reported amounts in the FY 1996 DBOF monthly
    AR 1307 and the FY 1996 DBOF financial statements.



                                       4
                          FInding A. The Fund Balance With Treasury Account



DOD Accounting and Reporting Systems

    The accounting and reporting systems at the DFAS Centers provide various
    financial information to DOD managers. These systems use and consolidate
    operational data for preparing departmental reports; interface cross-disbursing
    and interfund data from other DFAS Centers; control and reconcile cash to
    Treasury balances; and develop facial       management information for monthly
    and annual financial statement reporting. However, a number of deficiencies
    and material weaknesses in these systems have been identified in the DFAS
    FY 1996 annual statement of assurance and the DBOF FY 19% management
    representation letter. In addition, the current systems do not comply with the
    requirements of OMB Circular No. A-127, “Financial Management Systems,”
    July 23, 1993. These deficiencies and material weaknesses contribute to the
    inability of DOD to capture all transactional data in the DBOF general ledgers.

    Compliance With OMB Circular No. A-127. In its FY 1996 annual statement
    of assurance, DFAS evaluated its financial management systems, which
    included departmental accounting and reporting systems. These evaluations
    were conducted to determine corn liance with the requirements for financial
    management systems outlined in 8 MB Circular No. A-127. OMB Circular
    No. A-127 is implemented through DOD 7000.14-R, the “DOD Financial
    Management Regulation, * volume 1, “General Financial Management
    Information, Systems, and Requirements, n chapter 3, “Accounting Systems
    Conformance, Evaluation, and Reporting, n May 1993. This guidance requires
    that systems managers and users complete an annual self-assessment of
    operating accounting s stems, and that an independent, detailed evaluation also
    be completed on a cyc rical basis. These self-assessments and independent
    detailed evaluations should form the basis for determining the compliance of
    existing accounting systems. DFAS performed these reviews and took action to
    correct the deficiencies found.

            Assessment Results. In FY 1996, the DFAS Centers used an automated
    evaluation document referred to as a “System Manager and User Review”
    (SMUR) guide to evaluate their financial management systems. The SMUR
    guides outlined key accounting requirements and showed the status of the DFAS
    systems. We reviewed SMUR guides for the Defense Business Management
    System at the DFAS Columbus Center, for the Merged Accountability and Fund
    Reporting System at the DFAS Denver Center, and for the Headquarters
    Accounting and Reporting System at the DFAS Indianapolis Center. These
    systems captured and reported the transactional data for each activity. Each of
    the SMUR guides reported deficiencies that represent nonconformance with the
    principles, standards, and requirements of the General Accounting Office, the
    OMB, and DOD.

    The DFAS Columbus Center reported as noncompliant 2 out of 13 key
    accounting requirements for the Defense Business Management System, a mixed
    multifunctional system. The DFAS Denver Center reported as noncompliant
    6 out of 13 key accounting requirements for the Merged Accountability and
    Fund Reporting System, a departmental accounting and reporting system. In
    addition, the DFAS Indianapolis Center reported as noncompliant 2 out of
                                        5
                       FInding A. The Fund Balance With Treasmy Account

13 key accounting requirements for the Headquarters Accounting and Reporting
System, another departmental accounting and reporting system. Table 1 details
the noncompliance of these systems with key accounting requirements.


      Table 1. Compliance with Key Accounting Requirements for FY 1996



 Key Accounting Reauirements              HOARSl         WE.!&*         DBMS3
 1.     General Ledger Control and            X’             X              X
        Financial Reporting
 2.     Property and Inventory                __5            __             __
        Accounting
 3.     Accounting for Receivables            --             --             --
        Including Advances
 4.     Cost Accounting                       --             --             --
        Accrual Accounting                    __             __             -_
 ::     Military and Civilian                 --             --             --
        Payroll Procedures
 7.     System Controls                       --            X
        Audit Trails                          --                            x
 !:     Cash Procedures and                   --            X               --
        Accounts Payable
 10.    System Documentation                  X                             __
 11.    System Operations                     __            ::              __
 12.    User Information Needs                --            X               --
 13.    Budgetary Accounting                  _-            --              --

:Headquarters Accounting and Reporting System.
,Merged Accountability and Fund Reporting System.
 Defense Business Management System.
:X means the system was noncompliant.
 -- means the system was compliant or the requirement was not applicable.

IG, DOD, Report No. 97-006, “Major Accounting and Management Control
Deficiencies in the Defense Business Operations Fund in FY 1995, n
October 15, 1996, stated that the internal control structure of existing
accounting systems is so weak that reliable and auditable financial statements
will probably not be available until the turn of the century, after DBOF has
converted from legacy systems to interim migratory systems.

        DFAS Actions. DFAS has begun taking steps to resolve some of the
reported deficiencies. Specifically, Headquarters, DFAS contracted with Arthur
Andersen, a consulting firm, to study DOD accounting and cash accountability
functions and to determine the benefits of performing these functions
differently. The “Departmental Accounting and Cash Accountability Study”
was completed in July 1996. Although we did not validate the results, the study
concluded that more efficiency could be realized by reducing the




                                     6
                           Finding A. The Fund Balance With Treasury Account

    number of systems that provide accounting data, standardizing general ledger
    processes and data elements, editing accounting data at the source, and
    establishing a single system to perform each function.

    The study by Arthur Andersen was followed by another DFAS initiative,
    “Defense Finance and Accounting Service, Accounting Systems Strategic Plan
    for the Department of Defense,” February 13, 1997. In this plan, DFAS
    outlined a target architecture and migration strategy that analyzed alternatives to
    migrating to a single departmental accounting system and a single cash
    accountability system. This strategy incorporated the recommendations of the
    study by Arthur Andersen.



DOD Collection and Payment Process

    The DBOF general ledgers did not su port the $73.5 billion in funds collected,
    $74.7 billion in funds disbursed, the D5.3 billion in funds with Treasury, or the
    net $4.1 billion FBWT Account balance as reported in the monthly AR 1307
    and the CFO Act financial statements for the fiscal year ended
    September 30, 1996. This occurred because previously reported deficiencies in
    the DOD collection and payment process remained uncorrected. Timing
    differences between the recording of financial data by the Treasury and the
    posting of the financial data in the DOD general ledgers contributed to the
    unsupported financial statements. DOD has no method of determining reliable
    FBWI’ amounts and uses the monthly and annual Treasury FBWT Account
    balances as the reported amounts in the FY 1996 DBOF monthly AR 1307 and
    the FY 1996 DBOF CFO Act financial statements.

     The DOD collection and payment process typically involves collection and
     payment transactions made by one DOD activity on behalf of another DOD
     activity. These transactions are referred to as transactions by or for others
     (TBO/TFO). TBO/TFOs may take place between two elements of a DOD
     Component (intra-Service) or between one DOD Component and another DOD
     Component or Government activity (cross-disbursing). Interfund transactions,
     which are transactions between buyers and sellers of DBOF supplies and
     appropriated fund supplies, are another aspect of the DOD collection and
     payment process. Each DFAS Center and its subordinate Operating Locations
     or Defense Accounting Offices participate in the DOD collection and payment
     process by originating and reporting transactions for the other DFAS Centers,
    .which are responsible for recording the reported transactions in the general
     ledgers of the DOD activity affected.

    The DFAS Center involved in the collection and payment process may be the
    paying or the receiving center. The paying center reviews data received from
    the disbursing stations; reports collection and disbursement data to the Treasury;
    and sends vouchers, supporting documentation, summary information, and
    Treasury reports to the accountable receiving center. The receiving center
    passes the vouchers and supporting documentation to its subordinate Operating
    Locations or Defense Accounting Offices that are responsible for recording
    transactions in the general ledgers of the business activity. Transferring
    documents among the various financial activities creates problems, such as
                                         7
                       Finding A. The Fund Balance With Treasury Account

misplaced documents and timing differences in posting transactions to DOD
general ledgers. The timing differences help to create the differences between
the DOD general ledgers and the Treasury balances for the FBWT account.
This problem has been reported in prior audit reports and candidly
acknowledged in feeder reports for the DFAS FY 19% annual statement of
aSSUranCe.


Collection and Disbursement Issues. The DOD audit community and the
Directors of the DFAS Centers have reported numerous problems with the DOD
collection and payment process. Some significant problems identified by the
Military Departments or DFAS Centers are discussed below.

         Navy Issues. The Naval Audit Service, in Report No. 035-96, “Fiscal
Year 1995 Consolidated Financial Statements of the Department of the Navy
Defense Business Operations Fund, n May 3 1, 1996, stated that even after cash
reconciliation, Navy DBOF cash amounts reported as collected and disbursed
did not agree with individual Navy DBOF activities’ records. As of
September 30, 1995, collections reported by the Navy DBOF activities
exceeded the amounts reported in the Navy DBOF Consolidated Financial
Statements by $1.3 billion, and disbursements reported by the Navy DBOF
activities* exceeded the facial     statements by $1 billion. The differences
occurred because the Navy DBOF Consolidated Financial Statements used
amounts reported through the Navy financial network, and the Navy DBOF
activities used amounts not processed through that network. Differences
identified during cash reconciliations were not reported in the Navy DBOF
activities’ records, and DFAS did not provide the Navy DBOF activities with all
data processed through the Navy financial network.

         DFAS Cleveland Center Issues. The DFAS Cleveland Center reported
a material weakness in its feeder report to Headquarters, DFAS, for the
FY 1996 annual statement of assurance. The weakness was a lack of controls
that inhibited the elimination of undistributed and unmatched disbursements.
In-transit or undistributed disbursements are defined as disbursements or
collections that have been registered to the Treasury and charged or credited to
an appropriation, but not yet distributed to the responsible accounting station.
Therefore, the general ledgers of the activities affected will not equal collection
and disbursement amounts reported by the Treasury. In-transit disbursements
are reported and tracked by the DFAS as problem disbursements when those
transactions are not cleared within 180 days. As of August 31, 1996, in-transit
problem disbursements amounted to a net value of $3.6 billion for all Navy
appropriations, including the Navy DBOF. As of September 30, 1996, the
in-transit problem disbursements reported by the DFAS Cleveland Center
totaled $5.1 billion for the Navy.

        Air Force Jssues. We reviewed the Air Force DBOF collection and
disbursement reconciliation with the Treasury for Ma 19% and determined that
the Air Force identified reconciliation differences of & .3 million caused by
duplicate transactions, suspense transactions, unidentified adjustments, and
accounting errors. Personnel at the DFAS Denver Center who provide
accounting services for the Air Force stated that reconciling differences such as
these occur each month.

        DFAS Denver Center Issues. The DFAS Denver Center reported a
material weakness in reconciling the clearing accounts in its feeder report to
                                    8
                           Finding A. The Fund Balance With Treasury Account

    Headquarters, DFAS for the FY 1996 annual statement of assurance. The
    required monthly reconciliation of collection and disbursement transactions by
    the Air Force to Treasury balances was inaccurate. The DFAS Denver Center
    reported that as a result of this material weakness, facial statement amounts
    may not be accurate, and fraud could go undetected.

            DFAS Indianapolis Center Issues. The DFAS Indianapolis Center also
    reported a material weakness for problem disbursements. In its feeder report to
    Headquarters, DFAS for the FY 1996 annual statement of assurance, the DFAS
    Indianapolis Center stated that the primary causes of problem disbursements
    were nonintegration between systems and errors or delays in posting collections
    and disbursements to the accounting records. No dollar values for problem
    disbursements were given in the report. However, as of September 30, 1996,
    problem disbursements reported by the DFAS Indianapolis Center to
    Headquarters, DFAS totaled $3.1 billion for all categories of problem
    disbursements, including $2.3 billion for in-transit disbursements.

    Summary Reporting Issues. All of the examples noted above contributed to
    the inability of DOD to calculate the FBWT Account balances. The “DOD
    Guidance on Form and Content of Financial Statements for FY 1996 Financial
    Activity, * October 1996, states that when individual line items cannot be
    obtained, the deficiencies will be explained and the reasons for noncompliance
    annotated. The DOD financial statements do not explain the deficiencies in the
    FBWT Account because the reported amounts were provided by the Treasury.

    In spite of the deficiencies noted, DFAS is continuing to take corrective actions.
    For example, in the “Chief Financial Officer, Financial Management 5-Year
    Plan,” August 1996, DFAS detailed the steps that DOD is taking to develop
    financial management systems that comply with OMB Circular No. A-127.



Summary

   The DOD eneral ledgers do not provide support for the $73.5 billion in funds
   collected, %74.7 billion in funds disbursed, $5.3 billion in funds with Treasury,
   or the net $4.1 billion FBWT Account balances. Therefore, DOD has relied on
   the Treasury to provide FBWT Account balances as reported amounts in the
   monthly AR 1307 and the CFO Act financial statements for the fBcal years
   ended September 30, 19% and 1997. Until changes are implemented to DOD
   accounting and reporting systems and DOD payment and collection processes,
   DOD will not be in compliance with the DOD 7000.14-R. In addition, if these
   problems are not corrected, the monthly accounting reports and the financial
   statements for FY 1998 and beyond will be materially misstated. We are not
   making recommendations because the issues discussed in our report have been
   previously reported in other audit reports and in feeder reports for the DFAS
   annual statement of assurance.




                                        9
            Finding B. Reporting of Undistributed
            Transactions
            The DFAS Centers did not disclose the dollar amounts of undistributed
            collections and disbursements closed out to accounts receivable and
            accounts payable for any DBOF component in the DBOF financial
            statements for FY 1996. In addition, the DFAS Cleveland and
            Columbus Centers incorrectly reported net totals of $335.4 million in
            undistributed collections and $849.8 million in undistributed
            disbursements in the monthly Supplemental Information for the DBOF
            Defense agencies. This occurred because annual financial statement
            guidance from the OMB and DOD did not require the disclosure of
            adjustments made to accounts receivable and accounts payable by
            undistributed amounts. In addition, DOD policy instructions were
            unclear concerning the reporting of undistributed amounts in the monthly
            Supplemental Information. Further, the DFAS quality reviews did not
            uncover deficiencies in the reporting of undistributed amounts. As a
            result, the DBOF financial statements for FY 1996 did not adequately
            disclose material adjustments made to accounts receivable and accounts
            payable because of undistributed amounts. Because of the incorrect
            reporting of the FY 19% monthly Supplemental Information, cumulative
            undistributed collections were overstated by $334.6 million and
            cumulative undistributed disbursements were understated by
            $810.8 million for the DBOF Defense agencies. The condition continued
            with the FY 1997 accounting reports and financial statements. If these
            problems are not corrected, the accounting reports and financial
            statements for FY 1998 and beyond will be materially misstated.



Undistributed Transactions

     Undistributed collection and disbursement transactions represent financial data
     reported to the Treasury that were not accepted and posted to the general ledgers
     of DOD organizations. The financial networks at the DFAS Cleveland, Denver,
     and Indianapolis Centers report financial data on collections and disbursements
     monthly to the Treasury. These networks used the financial data provided to
     the Treasury for FBWT’ Account reporting in the FY 1996 DBOF monthly AR
     1307 and the FY 1996 DBOF fitlancial statements. The differences between the
     amounts reported to the Treasury and the amounts officially recorded by DOD
     activities represent undistributed transactions.

    Undistributed transactions affect the DBOF monthly AR 1307 and the DBOF
    financial statements because cumulative (since the inception of DBOF)
    undistributed transactions are applied to the accounts receivable and accounts
    payable general ledger accounts. Therefore, if errors are recorded in


                                         10
                                    Finding B. Reporting of Undistributed Transactions

   undistributed transactions, the balances in the DBOF accounts receivable and
   accounts payable accounts will reflect the same errors.

  Table 2 illustrates the reporting of undistributed amounts as of
  September 30, 1996, for the DBOF Defense agencies. The “reported” column
  details the amounts shown on the monthly Supplemental Information. The
  “required” column detaiIs the actual adjustments made for reporting purposes to
  accounts receivable and accounts payable on the monthly AR 1307 and financial
  statements for the DBOF Defense agencies during the period ended
  September 30, 1996. The “difference” column reflects the errors in reporting
  made in the monthly Supplemental Information, as well as errors in ,the accounts
  receivable and accounts payable balances reported in the FY 1996 financial
  statements for the DBOF Defense agencies.



                Table 2. Reporting of Undistributed Collections and
                Disbursements on AR 1307 as of September 30,1996
                                     (millions)

                                                                                                Difference

                      collection8     DWurae-           Cokctiom      JXhurs~      Cokctio~~~    Disburse-
                                         m?!k                            @a!                       ments
Defense Apencies
DECA’ Operations       $(105.2)      $   ( 14.2)        $       0    $        0    $ (105.2)      $2(4”;2)
DFAS                     ( 14.2)         254.5                  0             0        (14.2)
DLA2                     308.6           829.0              338.4         869.1        (29.8)      (4011)
DLA3                    (256.2)           114.6              (3.6)         (7.1)     (252.6)       121.7
DMCd                       67.8          476.7                 .6         (12.2)        67.2       488.9
JLSCS
USTRANSCOM6

 T&IS                  $ 58.8        $2,015.6           $ 393.4      $1,204.8      $ (334.6)      $810.8



‘DeCA - Defense Commissary Agency.
2RepresemtsDLA business area Supply Management.
?.ncludes all DLA business areas except Supply Management.
‘DMCs - Defense Megacenters.
‘JLSC - Joint Logistics Service Center reported $(3,000) in undistributed collections.
%JSTRANSCOM - United States Transportation Command.



   Table 2 shows that cumulative undistributed collections were overstated by
   $334.6 million and cumulative undistributed disbursements were understated by
   $810.8 million for the DBOF Defense agencies.

  For reporting purposes, the normal effect of osting undistributed transactions
  would be to decrease accounts receivable an B accounts payable. However,
  when undistributed amounts reflect negative amounts, which is termed an
  abnormal condition, accounts receivable and accounts payable are abnormally
  increased. Table 2 shows negative undistributed amounts reported for the
                                                   11
                             l3nding B. Reporting of Undistributed lhnsactions

    FY 1996 DBOF Defense agencies. Therefore, accounts receivable and accounts
    payable were abnormally increased for reporting purposes in every month and at
    the end of every fucal year when negative undistributed amounts were included
    in undistributed balances. For reporting purposes, adjustments made to
    accounts receivable and accounts payable by undistributed amounts are normally
    reversed at the start of each reporting period.



Disclosing Undistributed Amounts

    The reporting guidance for DOD financial statements is based on OMB
    guidance, which does not require the disclosure of financial data on
    undistributed amounts in the footnotes to the financial statements. However,
    OMB Bulletin No. 94-01, “Form and Content of Agency Financial Statements,”
    November 16, 1993, states, “The notes to the principal statements are an
    integral part of the principal statements.” The OMB guidance also states that
    the notes to the principal statements “shall provide additional disclosures
    necessary to make the principal statements fully informative and not
    misleading. n In contrast, the “DOD Guidance on Form and Content of
    Financial Statements for FY 1996 Financial Activity” provides for the
    disclosure of any other information related to accounts receivable and other
    liabilities; however, it does not specifically require the disclosure of financial
    data on undistributed amounts.

    The DFAS Centers did not disclose $58.8 million in undistributed amounts
    closed out to accounts receivable and $2 billion in undistributed amounts closed
    out to accounts payable in the DBOF Defense agencies’ component of the
    FY 1996 Consolidated Financial Statements. The footnotes to those financial
    statements disclosed that adjustments were made to accounts receivable and
    accounts payable because of facial      data on undistributed amounts. However,
    the footnotes did not disclose the dollar value of those financial data. The DOD
    guidance should be updated to require that the footnotes to the financial
    statements disclose material undistributed amounts used to adjust the accounts
    receivable and accounts payable balances.



Reporting Undistributed Amounts

    Because of unclear DOD policy instructions, the DFAS Columbus and Cleveland
    Centers incorrectly reported a net total of $335.4 million in undistributed
    collections and $849.8 million in undistributed disbursements on the
    September 30, 1996, Supplemental Information for the DBOF Defense
    agencies. As a result, the September 30, 1996, Su plemental Information
    overstated cumulative undistributed collections by P334.6 million and
    understated cumulative undistributed disbursements by $810.8 million.

    DOD Policy Instructions. DOD policy instructions are found in DOD
    7000.14-R, volume 1 lB, “Reimbursable Operations, Policy and Procedures--

                                        12
                         Finding B. Reporting of Undistributed Transactions

Defense Business Operations Fund,” chapter 70, “Defense Business Operations
Fund Accounting Report 1307,” December 1994. However, chapter 70
provides both correct and incorrect guidance.

The correct guidance directs that undistributed amounts be reported in the
Sup@emental Information. The undistributed amounts represent cumulative
undistributed amounts. DOD 7000.14-R gives examples showing that
undistributed amounts that are applied to accounts receivable and accounts
payable should be reported in the Supplemental Information on reporting lines
33 and 34. Reporting lines 33 and 34 provide for undistributed collection and
disbursement amounts that should have been recorded in DOD General Ledger
Account Codes 1014 (Undistributed Collections) and 1015 (Undistributed
Disbursements).

DOD 7000.14-R gives incorrect guidance on the citing of General Ledger
Account Codes 1011.3 (Funds Collected-Undistributed) and 1012.3 (Funds
Disbursed-Undistributed). According to personnel at Headquarters, DFAS ,
General Ledger Account Codes 1011.3 and 1012.3 are invalid because they no
longer exist in the DOD Chart of Accounts. These invalid General Ledger
Account Codes have corresponding invalid reporting lines in the Supplemental
Information (lines 29c and 3Oc). By including the invalid General Ledger
Account Codes 1011.3 and 1012.3 and the associated invalid reporting lines
29c and 3Oc in the Supplemental Information, DOD 7000.14-R contributed to
the incorrect reporting of undistributed amounts in the Supplemental
Information. The Under Secretary of Defense (Comptroller) should update
DOD 7000.14-R to remove the invalid General Ledger Account Codes 1011.3
and 1012.3 from chapter 70. The invalid reporting lines 29c and 3Oc in the
Supplemental Information should also be removed from chapter 70.

DFAS Center Reporting. The DFAS Cleveland, Columbus, and Denver
Centers were responsible for reporting undistributed amounts in the monthly
Supplemental Information for the DBOF Defense agencies. The monthly
Supplemental Information for September 30, 1996, showed that the DFAS
Cleveland and Columbus Centers incorrectly re orted a net total of
$335.4 million in undistributed collections and E849.8 million in undistributed
disbursements in the September 30, 1996, Supplemental Information for the
DBOF Defense agencies.

        DFAS Cleveland Center Reporting. The DFAS Cleveland Center
incorrectly reported $67.2 million in cumulative undistributed collections and
$488.9 million in cumulative undistributed disbursements for the Defense
Information Systems Agency’s Defense Megacenters business area in the
monthly Supplemental Information for the period ended September 30, 1996.
S ifically, the DFAS Cleveland Center reported partial undistributed amounts
(& mill’ion in undistributed collections and a negative $12.2 million in
undistributed disbursements) for the Defense Megacenters business area.
However, those portions of the undistributed amounts were reported on the
correct reporting lines 33 and 34 in the monthly Supplemental Information.

        DFAS Columbus Center Reporting. The DFAS Columbus Center
incorrectl reported undistributed amounts for the DFAS business areas, the
Defense E ommissary Agency Operations business area, and part of the Defense
Logistics Agency (DLA) business areas on invalid reporting lines 29c and 3Oc.
Although the amounts reported were incorrect for the DLA Supply Management
                                   13
                             Finding B. Reporting of Undistributed Transactions

    business area ($338.4 million in undistributed collections and $869.1 million in
    undistributed disbursements), the DLA Materiel portion of the Supply
    Management business area was reported correctly on lines 33 and 34.

    In addition, the DFAS Columbus Center was not able to calculate cumulative
    undistributed amounts for the Defense Commissary Agency’s Resale business
    area because of systematic problems with the posting of undistributed
    transactions in the DFAS Columbus Center’s accounting system. Therefore, the
    FY 1996 financial statements for the Defense Commissary Agency showed
    incorrect amounts for accounts receivable and accounts payable that were not
    adjusted because of unavailable data on undistributed amounts. The DFAS
    Columbus Center is currently working with the Defense Commissary Agency
    and Headquarters, DFAS, to correct the problem.

             DFAS Denver Center Reporting. In contrast, the DFAS Denver
    Center correctly reported undistributed amounts ($58 million in undistributed
    collections and $355 million in undistributed disbursements) in the Supplemental
    Information for the U. S. Transportation Command and the Joint Logistics
    Service Center for the period ended September 30, 1996. In addition, the
    undistributed amounts were correctly reported on lines 33 and 34 in the monthly
    Supplemental Information.



Quality Assurance Review

    Headquarters, DFAS and the DFAS Columbus, Cleveland, and Indianapolis
    Centers have quality review procedures; however, the DFAS Centers did not
    effectively review the undistributed amounts reported in the monthly AR 1307
    before certification. The ineffective quality review checks resulted in reporting
    deficiencies, such as inaccurate and incorrectly reported amounts and negative
    undistributed amounts, in the monthly Supplemental Information. The
    ineffective quality review checks represent an internal control weakness;
    additional procedures need to be established to ensure the accuracy of the
    undistributed amounts reported. As a result, the AR 1307 did not disclose the
    actual amounts closed out to accounts receivable ($58.8 million) and accounts
    payable ($2 billion) in FY 1996 monthly Supplemental Information for the
    DBOF Defense agencies.

    Reporting Negative Undistributed Amounts. The “R uired” column in
    Table 2 illwtrates negative undistributed amounts. @ci e? ically, Table 2 shows
    that the Defense Commissary Agency Operations busmess area had
    $105.2 million in negative undistributed collections, the DFAS business areas
    had $14.2 million, and the DLA business areas had $256.2 million. Table 2
    also shows that the Defense Commissary Agency Operations business area had
    $14.2 million in negative undistributed disbursements.

    Negative undistributed amounts that represent abnormal balances should not
    exist in DOD reporting. Collection and disbursement amounts recorded in DOD
    general ledgers should not exceed the amounts that are reported in the same
    period to the Treasury. Negative undistributed amounts, when closed out for
    reporting purposes to accounts receivable and accounts payable, increase those
                                        14
                           Finding B. Reporting of Undistributed Transactions

   accounts. The increase caused the accounts receivable and accounts payable
   amounts in the FY 1996 DBOF fiDancial statements to be misstated.

   The General Accounting Office, in its Report No. GAO/AIMD 96-54 (OSD
   Case No. 1109), “Defense Business Operations Fund: DOD is Experiencing
   Difficulty in Managing the Fund’s Cash,” April 10, 1996, also identified the
   reporting of negative undistributed amounts and the resulting improper effect on
   accounts receivable and accounts payable.

   Management Control Weakness. The quality review checks performed by
   DFAS did not disclose the inaccurate reporting of undistributed amounts in the
   FY 1996 monthly Supplemental Information for the DBOF Defense agencies.
   The monthly Supplemental information should have listed the exact
   undistributed amounts that were closed out for reporting purposes to accounts
   receivable and accounts payable, but did not. The ineffective quality review of
   the monthly Supplemental Information represents an internal control weakness.



Summary

   The financial statement reporting for undistributed amounts in the DBOF was
   not disclosed in the FY 1996 financial statements because guidance from OMB
   and the USD(C) did not specifically require the disclosure of undistributed
   amounts. In addition, undistributed amounts totaling $335.4 million in
   undistributed collections and $849.3 million in undistributed disbursements were
   incorrectly reported in the monthly Supplemental Information for the DBOF
   Defense agencies. This occurred because DOD policy instructions were unclear
   concerning the reporting of undistributed amounts. Because of errors in the
   DOD policy instructions, DOD 7000.14-R required the use of invalid General
   Ledger Account Codes 1011.3 and 1012.3 and the corresponding invalid
   reporting lines 29c and 3Oc in the monthly Supplemental Information.

   DFAS quality review procedures did not identify errors in the undistributed data
   reported in the monthly Supplemental Information. As a result, the
   September 30, 1996, Supplemental Information overstated cumulative
   undistributed collections by $334.6 million and understated cumulative
   undistributed disbursements by $810.8 million. The condition continued with
   the FY 1997 accounting reports and financial statements. If these problems are
   not corrected, the accounting reports and financial statements for FY 1998 and
   beyond will be materially misstated.




                                      15
                            Finding B. Reporting of Undistributed Transactions



Recommendations and Requirements for Management
Comments
    B.l.   We recommend that the Under Secretary of Defense (Comptroller):

           a. Update the annual “DOD Guidance on Form and Content of
    Financial Statements” to require the reporting of material undistributed
    amounts that are applied to accounts receivable and accounts payable in all
    financial reporting for the Defense Working Capital Funds.

    Management Comments. The Under Secretary of Defense (Comptroller)
    concurred and will require disclosure of material amounts of undistributed
    collections and disbursements.
          b. Update DOD 7000.14-R to omit invalid General Ledger Account
    Codes 1011.3 and 1012.3 from the instructions for the monthly Accounting
    Report 1307.

    Management Comments. The Under Secretary of Defense (Comptroller)
    concurred and will update the DOD-7000.14R and omit invalid General Ledger
    Account Codes
           c. Update DOD 7000.14-R to omit invalid reporting lines in the
    Accounting Report 1307, Statement of Cash Flows, Supplemental
    Disclosure of Cash Information.

    Management Comments. The Under Secretary of Defense (Comptroller)
    concurred and will update the DOD-7000.14R to omit invalid reporting lines.
    B.2. We recommend that the Director, Defense Finance and Accounting
    Service, issue standard operating procedures to the Defense Finance and
    Accounting Service Centers for the reporting of undistributed balances in
    the monthly Accounting Report 1307, Statement of Cash Flows,
    Supplemental Disclosures of Cash Information.

    The Director, Defense Finance and Accounting Service, did not comment on a
    draft of this report. We request the Director provide comments on @is report.
    B.3. We recommend that the Director, Defense Finance and Accounting
    Service Cleveland Center:

           a. Establish procedures to hnplement DOD 7000.14-R for reporting
    undistributed balances on the monthly Accounting Report 1307, Statement
    of Cash Flows, Supplemental Disclosure of Cash Information, for the
    Defense Working Capital Funds.

           b. Establish procedures to supplement existing quality assurance
    reviews of financial information before certification of the financial
    statements to ensure that undistributed balances are correctly reported in
    the monthly Accounting Report 1307, Statement of Cash Flows,

                                       16
                        FInding B. Reporting of Undistributed Transactions

Supplemental Disclosure of Cash Information, for the Defense Working
Capital Funds.

        c. Establish procedures to reconcile undistributed amounts and to
reseaxh and determine the basis for the reporting of negative undistributed
balances for the Defense Working Capital Funds and make the necessary
corrections before certification of the financial statements to ensure that
undistributed balances are correctly reported.

The Director, Defense Finance and Accounting Service Cleveland Center, did
not comment on a draft of this report. We request the Director provide
comments on this report.
B.4. We recommend that the Director, Defense Fbumce and Accounting
Service Columbus Center:

       a. Establish procedures to implement DOD 7000.14-R for the
reporting of undistributed balances on the monthly Accounting Report
1307, Statement of Cash Flows, Supplemental Disclosure of Cash
Information, for the Defense Working Capital Funds.

       b. Establish procedures to supplement existiug quality assurance
reviews of financial information before certification of the financial
statements to ensure that undistributed balances are correctly reported iu
the monthly Accounting Report 1307, Statement of Cash Flows,
Supplemental Disclosure of Cash Information, for the Defense Working
Capital Funds.

       c. Establish procedures to reconcile undistributed amounts and to
research and determine the basis for the reporting of negative undistributed
balances for the Defense Working Capital Funds and make the necessary
corrections before certification of the financial statements to ensure that
undistributed balances are correctly reported.

The Director, Defense Finance and Accounting Service Columbus Center, did
not comment on a draft of this report. We request the Director provide
comments on this report.




                                  17
Part II - Additional Information
Appendix A. Audit Process


Scope and Methodology

    We performed our work at Headquarters, DFAS, and at the DFAS Cleveland,
    Columbus, Denver, and Indianapolis Centers. We reviewed the DFAS process
    for reconciling the DBOF FBWT Account and for disclosing undistributed
    amounts on the FY 1996 DBOF facial          statements. We also reviewed the
    DFAS process for reporting and closing out undistributed amounts in the
    monthly AR 1307 for the DBOF Defense a encies. As of September 30, 1996,
    DOD reported $73.5 billion in collections. f 74.7 billion in disbursements,
    $5.1 billion in funds with Treasury, and a net balance of $4.1 billion, in the
    DBOF FBWT Account. Of those totals, the DBOF Defense agencies reported
    $27.4 billion in funds collected, $29 billion in funds disbursed, $2.8 billion in
    funds with Treasury, and a net balance of $1.2 billion in FBWT as of
    September 30, 1996.

    Use of Computer-Processed Data. To achieve our audit objective, we relied
    on computer-processed data without testing the general and application controls.
    We compared the data on the monthly Supplemental Information to financial
    data provided by the DOD financial networks and the Treasury. Although we
    did not confirm the reliability of the data, the inaccuracies in the data, as
    reported in Finding B, did not materially affect the results of our audit.

    Audit Period and Staudards. We performed this financial-related audit from
    August 1996 through June 1997 in accordance with auditing standards issued by
    the Comptroller General of the United States as implemented by the Inspector
    General, DOD, and accordingly included such tests of internal controls as were
    considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD. Further details are available on request.



Management Control Program

    DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.



                                        20
                                                 Appendix A. Audit Process

  Scope of Review of the Management Control Program. We rehewed the
  adequacy of management controls over the reporting of the FBWT Account in
  the FY 1996 monthly AR 1307 and in the FY 1996 DBOF financial statements
  for the DBOF Defense agencies. Specifically, we reviewed the management
  controls over the reporting of undistributed collection and undistributed
. disbursement amounts in the FY 1996 monthly DBOF AR 1307 and the
  FY 19% DBOF financial statements. Because we did not identify a material
  weakness, we did not assess management’s self-evaluation.

Adequacy of Management Controls. Management controls over the reporting
of FBWT Account balances in the FY 1996 DBOF monthly AR 1307 and the
FY 1996 DBOF financial statements were adequate; we identified no material
management control weaknesses.




                                  21
Appendix B. Summary of Prior Coverage


General Accounting Office

    Report No. A&ID-%-54 (OSD Case No. 1109), “Defense Business
    Operations Fund: DOD is Experiencing Difficulty in Managing the Fund’s
    Cash,” April 10,1996. This report stated that DBOF managers did not have
    timely, accurate, and complete data on cash balances for individual business
    areas. In addition, DBOF monthly financial reports did not fully disclose
    $5.4 billion in adjustments that were made to its accounts receivable and
    payable balances for undistributed disbursements and collections. The GAO
    recommended that the Under Secretary of Defense (Comptroller) identify the
    cash balance for each business area in the DBOF monthly AR 1307 fiDancial
    reports and fully disclose the amount of adjustments made to the accounts
    receivable and payable balances for undistributed collections and disbursements.
    The DFAS responded that it had developed reporting procedures so that fund
    balances for each area could be reported monthly. On November 26, 1996,
    Headquarters, DFAS, issued a memorandum to the Directors of the DFAS
    Centers entitled, “Footnotes for the Defense Business Operations Fund (DBOF)
    Financial Reports. n The memorandum explained how undistributed
    disbursements and collections should be disclosed on financial reports.

    Report No. AIMD-95-79 (OSD Case No. 9859), “Defense Business
    Operations Fund: Management Issues Challenge Fund Implementation,”
    Mar& 1, 1995. This report stated that DOD still had problems preparing
    accurate DBOF financial reports. DFAS revised the DBOF monthly AR 1307,
    Statement of Operations, but some officials in charge of the revision believed
    the report could not be properly prepared. Because the financial systems did not
    contain or accumulate all the necessary data, some DFAS Centers had to obtain
    the data manually. The officials stated that because different sources were used
    to obtain data manually, the AR 1307 data were not consistent, and therefore
    not comparable, between similar business areas. The report made no
    recommendations.

    Report No. AIMD-94-80 (OSD Case No. 9339-D), “Status of the Defense
    Business Operations Fund,” March 9,1994. This report stated that at least
    $4.7 billion in DBOF disbursements had not been matched to the corresponding
    obligations as of September 30, 1993. A major cause of unmatched
    disbursements is the time that elapes between making payments, transmitting
    disbursement data to various DOD activities, and recording the disbursement
    data against the proper obligations. DOD also acknowledged that DBOF
    facial     systems were inadequate. DBOF had 80 disparate, unlinked financial




                                       22
                                         Appendix B. Summary of Prior Coverage



    systems and approximately 200 ancillary systems that provided financial data.
    Consequently, data often were not complete, timely, or useful. The report
    made no recommendations.



Inspector General, DOD

    Report No. 97-006, “Mqjor Account@ and Management Control
    Deficiencies in the Defense Business Operations Fund in FY 1995,”
    October 15, 1996. This report identified significant accounting and
    management control deficiencies that prevented the timely development and
    reliable presentation of the DBOF financial statements. The report listed DBOF
    accounting systems as a major category of management control structures.
    Significant management control weaknesses existed in the DBOF accounting
    systems. The report concluded that the management control structure of
    existing accounting systems was so weak that reliable and auditable financial
    statements probably would not be available until at least FY 2002, after DBOF
    has converted from legacy systems to interim migratory systems. DOD senior
    management acknowledged the presence of severe control flaws in the DBOF
    accounting systems and took action to upgrade the systems and eliminate the
    weaknesses. The report contained no recommendations because numerous
    recommendations addressing these issues were made in previous audit reports.

    Report No. 94-159, “Fund Balances With The Treasury Accounts on the
    FY 1993 Financial Statements of the Defense Logistics Agency Business
    Areas of the Defense Business Operations Fund,” June 30,1994. This
    report concluded that the DLA business areas’ FBWT Accounts were not
    prepared in accordance with generally accepted accounting principles. This
    occurred because DOD policy guidance defined FBWT Accounts inadequately;
    DFAS procedures did not require that adequate audit trails be maintained and
    adjustments be matched to their proper periods; reconciliations were not
    completed for FY 1993 between two sets of financial records; and disclosures
    on the statement of cash flows and footnotes to the facial      statements were
    inadequate. The report recommended that FBWT guidance be rescinded
    because it was not in accordance with generally acce ted accounting principles;
    that procedures and controls be issued to establish atfequate audit trails,
    reconciliations, and controls over appropriation limits; that limits be established
    for business areas; and that discre ancies be disclosed in the FY 1993 statement
    of cash flows and accompanying Pootnotes. DLA concurred with the
    recommendation to establish appropriate limits for business areas, and partially
    concurred with the recommendation to disclose discrepancies in the FY 1993
    statement of cash flows and accompanying footnotes. DLA stated that the
    footnote disclosures in the FY 1993 facial     statements were adequate.




                                         23
                                          Appendix B. Summary of Prior Coverage


     Report No. 94-082, Financial Management of the Defense Business
     Operations Fund - F’Y 1992,” April 11,1994. This report stated that cash
     transactions were not accurately recorded on the financial statements because the
     Comptroller, DOD (now the Under Secretary of Defense [Comptroller]), had
     not issued written guidance on cash management of the DBOF and had not
     established oversight to ensure that accounting policies were followed. In
     addition, the various automated accounting systems in use by the DFAS Centers
     were not uniform and did not provide consistency in financial reporting or
     comparability of operations for the DBOF. The Deputy Comptroller, DOD,
     was tasked with developing comprehensive policies and procedures for cash
     management. The report recommended internal reconciliation procedures for
     disbursements and collections, adequate documentation to support accounting
     adjustments, and improved audit trails. Management concurred with the
     recommendations.

     Report No. 94-648, “Uncleared Transactions by and for others,”
     March 2,1994. This report concluded that DFAS management was not
     exercising the oversight needed to eliminate excessive delays in clearing
     transactions and to reduce undistributed disbursements and collections with a net
     value of $34.6 billion as of January 3 1, 1993. The procedures used to solve
     problems with disbursement and collection transactions were less than effective,
     and were not always followed. Without matching disbursements and collections
     to obligations, DOD incurs the risk that cumulative disbursements may exceed
     appropriation and other limits, and that fraudulent and erroneous payments
     could be made. The report recommended that the Comptroller, DOD, include
     detailed guidance for clearing transactions and reducing undistributed
     disbursements in DOD 7000.14-R. Management concurred with the
     recommendation.

     Report No. 93-134, Vrincipal and Combining F’inancial Statements of the
     Defense Business Operations Fund,” June 30,1993. This report stated that
     controls over cash were inadequate, a material discrepancy existed between the
     DBOF cash balance and Department of the Treasury records, and weekly flash
     cash reports were inaccurate. The report made no recommendations.
     Management generally concurred with the material weaknesses identified in the
     report.



Naval Audit Service

     Report No. 035-96, Wscal Year 1995 Consolidating FIuancial Statements
     of the Department of the Navy Defense Business Operations Fund,”
     May 31,1994. This report stated that the amounts reported as collected and
     disbursed in the FY 1995 Navy DBOF Consolidating Financial Statements did
     not agree with activities’ records after cash reconciliations. Collections reported
     by activities exceeded those used to pre are the FY 1995 Navy DBOF
     Consolidating Financial Statements by D1.3 billion, and disbursements reported



                                         24
                                    Appendix B. SW             of Prior Coverage

by activities exceeded those used to prepare the statements by $1 billion. The
differences occurred because facial      statement preparers relied only on
information processed by the Navy finance network, although activities included
transactions not processed through that network. Differences noted by activities
during cash reconciliations were not reported in the activities’ records; and
DFAS did not provide activities with all data processed through the Navy
finance network. DOD guidance states that cash transactions occur only when
the finance network recognizes them. The report recommended that the
Director, DFAS, provide Navy DBOF activities with data on all collections and
disbursements reported in the finance network and require, in forthcoming
directives on cash reconciliation, all subordinate activities, in conjunction with
Navy DBOF activities, to reconcile collection and disbursement data to data
reported in the finance network and post these reconciling items to the records.
DFAS concurred with the recommendations and initiated corrective actions.




                                    25
Appendix C. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange


Unified Command
Commander, U.S. Transportation Command


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service   Cleveland Center
   Director, Defense Finance and Accounting Service   Columbus Center
   Director, Defense Finance and Accounting Service   Denver Center
   Director, Defense Finance and Accounting Service   Indianapolis Center
   Director, Defense Finance and Accounting Service   Kansas City Center
Director, Joint Logistics Service Center




                                          26
                                                    Appendix C. Report Distribution



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office
Inspector General, U.S. Department of Education

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appro riations
  Senate Subcommittee on De !ense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
    Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                          27
Part III - Management Comments
Under Secretarv of Defense (ComWroller ) Comments
                               UNDER      SECRETARY          OF DEFENSE
                                       1100 DEFENSE  PENTAGON
                                     WASHINGTON.   DC 20301.1100




      MEMORANDUM FOR DIRECTOR, FINANCE AND ACCOUNTING DIRECTORATE,
                        OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF
                        DEFENSE

      SUBJECT: Draft Audit Report on the “Fund Balance With Treasury Account in the
               FY 1996 Financial Statements of the Defense Business Operations Fund,”
               (Projecr No. 5FH-202 1.Ol)


           This is the Offke of the Under Secretary of Defense (Comptroller) response to the subject
     draft report.

         ‘Ihis office concurs with recommendations B. 1. (a), (b), and (c). Attached are detailed
     comments regarding those recommendations.

          We appreciate the opportunity to comment on the draft repon.

           The point of contact for this matter is Mr. Thomas Short. He may be reached by e-mail:
     shorft@ousdc.osd.mil or by telephone at (703) 697-6875.            ,?




     Attachment




                                                     30
                                       Under Secretary of Defense (Comptroller) Comments




       OFFICE OF THE UNDER SECRETARY OF DEFENSE (COMPTROLLER)
 COMMENTS ON AN OFFICE OF THE INSPECTOR GENERAL DRAFI’ AUDIT REPORT
    “FUND BALANCE WITH TREASURY ACCOUKT IN THE Fy 1996 FINANCIAL
        STATEMENTS OF THE DEFENSE BUSINESS OPERATIONS FUND”
                        DATED NOVEMBER 20,1997
                        (PROJECT NO. SFH-2021.01)

                                           *******

Recommendation B.1.a. We [OIG] recommend that the Under Secretary of Defense
(Compuoller) update the annual “DoD Guidance on Form and Content of Financial Statements”
to require the reporting of material undistributed amounts that arc applied to accounts receivable
and accounts payable in all financial reporting for the Defense Working Capital Funds.

                       . Concur. The DOD Guidance on Form and Content for Fy 1998 Financial
Statements will require that the footnotes to the financial statements disclose the amount of
undistributed collections and disbursements used to offset accounts receivable and accounts
payable balances when such amounts are material.


Recommendation B.1.b. We [OIG] recommend that the Cnder Secretary of Defense
(Compooller) update DOD 7000.14-R to omit invaiid General Ledger Account Codes IO I I .3 and
1012.3 from the instructions for the monthly Accounting Report 1307.

                    . Concur. Volume 1 IB, Chapter 70, of DoD 7000.14-R will be revised to
omit General Ledger Account Codes 1011.3 and 1012.3 from the instructions for the monthly
Accounting Report 1307.


Recommendation R,l.c. We [OIG] recommend that the Under Secretary of Defense
(Comptroller) update DOD 7000.14-R fo omit invalid reporting lines in the Accounting
Report 1307, Statement of Cash Flows. Supplemental Disclosure of Cash Information.

OUSDK) Comment. Concur. Volume I IB, Chapter 70, of DoD 7000.14-R will be revised to
omit report lines 29~ and 3Oc from the monthly Accounting Report 1307, Statement of Cash
Flows, Supplemental Disclosure of Cash Information.




                                                                                       Attachment




                                                  31
   Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of the
Assistant Inspector General for Auditing, DOD.

   F. Jay Lane
   Salvatore D. Guli
   David F. Vincent
   Barbara A. Sauls
   Alvin E. Edwards
   Ronald D. Blake
   Stephanie F. Mandel
   Stacey L. Volis
   Michael Sciuto
   David J. Touchette
   Susanne B. Allen
   Angela D. Clayton
